                     DEPARTMENT
                     DEPARTMENTOF
                                OFHEALTH
                                  HEALTH&.
                                         &. HUMAN
                                            HUMAN SERVICES
                                                  SERVICES                                                           Office of Inspector
                                                                                                                               Inspector General
                                                                                                                                         General
(4~~.~
    E
+'~JS"VICES.ÚS.                                                                                                      Washington, D.C.
                                                                                                                     Washington, D.C. 20201

                                                                                                                                      20201




                                                               MAY -7
                                                               MAY  -7 mJ
                                                                       20


              TO:                Charlene Frizzera



                                          £~
                                 Acting Administrator
                                 Centers for
                                         for Medicare
                                             Medicare && Medica'
                                                         Medicai Services
                                                                  ervlces


              FROM:
              FROM: sephseph
                         E. Vengrin
                             E. Vengrin
                                 Deputy Inspector General
                                                  General for
                                                          for Audit
                                                              Audit Services
                                                                    Services


              SUBJECT: Review of of
                         Review  Medicaid  Services
                                    Medicaid  ServicestotoIncarcerated
                                                            IncarceratedJuveniles
                                                                         Juvenilesininthe
                                                                                       theState
                                                                                           Stateof
                                                                                                 ofGeorgia
                                                                                                   Georgia for
                         Federal Fiscal Years 2003 and 2004 (A-04-06-00026)


              Attached is an advance copy of of our final report on non-inpatient Medicaid services to
              incarcerated juveniles
                           juveniles claimed
                                      claimed by
                                               by the
                                                   the Georgia
                                                       Georgia Department
                                                                Deparment of
                                                                           of Community
                                                                               Community Health (the Medicaid
              agency) for Federal
              agency) for Federal fiscal
                                   fiscal years
                                          years (FY)
                                                 (FY) 2003
                                                       2003and
                                                             and2004.
                                                                 2004. We
                                                                       We will
                                                                           wil issue
                                                                                issue this
                                                                                       this report
                                                                                            report to
                                                                                                   to the Medicaid
              agency within 5 business days.

              During a prior review of Medicaid targeted case management services in Georgia
              (A-04-06-00022),             the Office of the Inspector General found that the Medicaid agency
              (A-04-06-00022), the Office of 


              inappropriately claimed
              inappropriately           claimed Federal
                                                      Federal financial
                                                                   financial participation
                                                                                  paricipation (FFP)
                                                                                                 (FFP) for targeted case management
              services to   to juveniles
                                 juveniles involuntarily residing in public institutions controlled by the Georgia
              Department          ofJustice
              Department of Juvenile  Juvenile       Justice
                                             (DJJ). These        (DJJ).
                                                          individuals       These
                                                                      Guvenile inmates individuals
                                                                                       of 
        Guvenile inmates of public institutions)
              were awaiting criminal  criminal proceedings, penal dispositions, or other involuntary detainment
              determinations. The
              determinations,            The Centers
                                                Centers for  for Medicare
                                                                   Medicare &      & Medicaid
                                                                                       Medicaid Services
                                                                                                  Services considers such individuals to be
              "inmates of public institutions," and non-inpatient medical services provided to them are
              ineligible      forpursuant
              ineligible for FFP    FFPtopursuant         to section
                                             section 1905(a)(A) of 
       1905(a)(A) of the Social Security Act.

              Our objective
                  objective was
                            was to
                                to determine whether the Medicaid agency claimed FFP for certain
              non-inpatient medical services provided to juvenile inmates of
                                                                          of public institutions.

             For Federal
                    Federal FYs  FYs 2003
                                      2003 and 2004, the Medicaid agency inappropriately claimed $3,769,787
             ($2,325,742
             ($2,325,742 Federal share)
                                  Federal share) in
                                                 in costs
                                                    costs relating
                                                          relating to
                                                                   to non-inpatient
                                                                      non-inpatient medical
                                                                                    medical services provided to
                                                                                            services provided to
             juvenile
             juvenile      inmates
                      inmates of 
    of public institutions because neither the Georgia DJJ nor the Medicaid agency
                    adequate controls to
             had adequate                  to ensure that those services were excluded from FFP.

              We recommend
                  recommendthat  thatthe
                                      theMedicaid
                                         Medicaid agency
                                                   agencyrefund
                                                           refundtotothe
                                                                      theFederal
                                                                          FederalGovernment    the $2,325,742
                                                                                   Governent the   $2,325,742
              overpayment forfor Federal FYs
                                         FY s2003
                                              2003 and
                                                    and 2004,
                                                        2004, examine
                                                               examine claims
                                                                         claims made
                                                                                made during
                                                                                      during the period subsequent
                     audit for
              to our audit for compliance
                               compliance with
                                           with these
                                                 theserequirements
                                                       requirementsandandrefund
                                                                           refud any
                                                                                 any overpayments
                                                                                     overpayments identified, and
              establish monitoring
                        monitoring procedures to provide reasonable assurance that DJJ has adequate controls
Page 2 – Charlene Frizzera


to ensure the accuracy of Medicaid eligibility status codes needed to identify juvenile inmates of
a public institution.

In written comments to the draft report, the Medicaid agency requested we delay the release of
our report until April 6, 2009, to give it “the opportunity to review each claim considered
‘erroneously reimbursed.’” We delayed issuance of our report; however, neither the Georgia DJJ
nor the Medicaid agency provided additional support for the Medicaid agency’s assertion that
juveniles voluntarily residing at the Regional Youth Detention Centers were included in our
overpayment calculation.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare &
Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov or Peter J.
Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750 or through
e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-06-00026.


Attachment
                               DEPARTMENT OF
                               DEPARTMENT OF HEALTH
                                             HEALTHAND
                                                    ANDHUMAN
                                                       HUMANSERVICES
                                                             SERVICESOffceOffice
                                                                           of Inspector    General
                                                                                 of Inspector General


~ ~
.."';~~to ,tRVIC)




t ~
                                                                                                              61
                                                                                                                           Office of Audit Services
                                                                                                                           Offce of

                                                                                                                               REGION IV
                                                                                                                               REGION iv

                                                                                                                  61 Forsyth Street, S.W., Suite 3T41
"'1o""'ol~                                                                                                             Atlanta, Georgia 30303
                                                                                                                                         30303

                                                                  MAY
                                                                  MAY 1
                                                                      1 22 2009
                                                                            20


               Report Number:
               Report Number: A-04-06-00026

               Ms. Carie Summers
               Ms.
               Chief Financial Officer
                        Department of
               Georgia Department   of Community Health
                           Medical Assistance
               Division of Medical
               2 Peachtree Street, NW.
               Atlanta, Georgia
               Atlanta, Georgia 30303-3159

               Dear Ms. Summers:

               Enclosed
               Enclosed is the is the
                               U.S.     U.S.of Department
                                    Deparment    
                              Human Services
                                                                  of Health and Human  Services (HHS),
                                                                                                (HHS), Office
                                                                                                        Office ofInspector
                                                                                                               ofInspector
               General
               General (OIG),(OIG),     final
                              final report       report
                                           entitled "Review entitled
                                                            of       "Review of Medicaid Services to Incarcerated Juveniles in
               the   State
               the State          Georgia for
                         of 
 of Georgia         for Federal
                                                      Federal Fiscal
                                                                  FiscalYears
                                                                        Years2003
                                                                               2003and
                                                                                    and2004."
                                                                                        2004." We
                                                                                               Wewill
                                                                                                   wil forward
                                                                                                       forward a copy
                                                                                                                  copy of
                                                                                                                       ofthis
                                                                                                                          this
               report to the HHS    HHS action official on the following page for review and any action deemed
               necessary.

               The HHSHHS action official will         wil make
                                                              make finalfinal determination
                                                                                determination as as to
                                                                                                     to actions
                                                                                                        actions taken
                                                                                                                 taken on-all
                                                                                                                       on-all matters
                                                                                                                              matters reported.
               We
               We    request
                  request that youthat
                                   respondyou   respond
                                           to this            to this
                                                   official within 30 daysofficial    within
                                                                           from the date of                              this letter.
                                                                                             30 days from the date of this    letter. Your
               response should present any comments or additional information that you believe may have a
               bearing on the final    final determination.

               Pursuant to
                         to the
                            the Freedom
                                Freedom ofInformation
                                          ofInformation Act, 5 U.S.c.
                                                                  U.S.c. §§552,
                                                                            552, OIG
                                                                                 OIG reports
                                                                                       reports generally
                                                                                               generally are
                                                                                                         are made
               available to
                         to the public to the extent the information is not subject to exemptions in in the Act.
               Accordingly,   this report wil be posted on  the Internet at http://oig.hhs.gov.
               Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

               If you have any questions or comments about this report, please do not hesitate to call me, or
               contact Eric Bowen,
                            Bowen, Audit Manager, at (404) 562-7789 or through e-mail at
               Eric.Bowen(ßoig.hhs.gov.
               Eric.Bowen@oig.hhs.gov. Please
                                          Pleaserefer
                                                 refer to
                                                        to report
                                                            report number
                                                                   number A-04-06-00026
                                                                          A-04-06-00026 in
                                                                                         in all
                                                                                            all correspondence.
                                                                                                correspondence.


                                                                          Sincerely,

                                                                        (f~.. d ($ o'-~~,

                                                                          Peter J. Barbera
                                                                          Regional Inspector General
                                                                            for Audit Services


               Enclosure
Page 2 – Ms. Carie Summers


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF MEDICAID SERVICES
TO INCARCERATED JUVENILES IN
  THE STATE OF GEORGIA FOR
    FEDERAL FISCAL YEARS
        2003 AND 2004




                      Daniel R. Levinson
                       Inspector General

                          May 2009
                        A-04-06-00026
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Section 1905(a) of the Social Security Act (the Act) authorizes State Medicaid agencies to
provide medical services to eligible Medicaid beneficiaries. However, subparagraph (A) of
section 1905(a) of the Act specifically excludes Federal financial participation (FFP) for care or
services provided to inmates of a public institution, except when inmates are patients in a
medical institution.

During a prior review of Medicaid targeted case management services in Georgia
(A-04-06-00022), the Office of the Inspector General found that the Georgia Department of
Community Health (the Medicaid agency) inappropriately claimed FFP for targeted case
management services to juveniles involuntarily residing in public institutions controlled by the
Georgia Department of Juvenile Justice (DJJ). These individuals (juvenile inmates of public
institutions) were awaiting criminal proceedings, penal dispositions, or other involuntary
detainment determinations. The Centers for Medicare & Medicaid Services considers such
individuals to be “inmates of public institutions,” and non-inpatient medical services provided to
them are ineligible for FFP pursuant to section 1905(a)(A) of the Act.

OBJECTIVE

Our objective was to determine whether the Medicaid agency claimed FFP for certain
non-inpatient medical services provided to juvenile inmates of public institutions.

SUMMARY OF FINDINGS

For Federal fiscal years (FY) 2003 and 2004, the Medicaid agency claimed $3,769,787
($2,325,742 Federal share) in costs relating to non-inpatient medical services provided to
juvenile inmates of public institutions. The Medicaid agency inappropriately claimed these costs
because neither the DJJ nor the Medicaid agency had adequate controls to ensure that services to
inmates of public institutions were excluded from FFP, in compliance with Federal requirements.

RECOMMENDATIONS

We recommend that the Medicaid agency:

   •   refund to the Federal Government the $2,325,742 overpayment for Federal FYs 2003 and
       2004,

   •   examine claims made during the period subsequent to our audit for compliance with these
       requirements and refund any overpayments identified, and

   •   establish monitoring procedures to provide reasonable assurance that DJJ has adequate
       controls to ensure the accuracy of Medicaid eligibility status codes needed to identify
       juvenile inmates of a public institution.


                                                 i
MEDICAID AGENCY COMMENTS

In written comments to the draft report, the Medicaid agency requested we delay the release of
our report until April 6, 2009, to give it “the opportunity to review each claim considered
‘erroneously reimbursed.’” The Medicaid agency’s comments are included in their entirety as
the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

As requested by the Medicaid agency, we delayed issuance of our report. To date, however,
neither DJJ nor the Medicaid agency has provided support for the Medicaid agency’s assertion
that juveniles voluntarily residing at the Regional Youth Detention Centers were included in our
overpayment calculation. In the absence of additional evidence, the comments provided by the
Medicaid agency did not cause us to change our findings or recommendations.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Medicaid Medical Assistance Programs .........................................................1
              Georgia Department of Community Health....................................................1
              Georgia Department of Juvenile Justice .........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
               Objective .........................................................................................................2
               Scope...............................................................................................................2
               Methodology ...................................................................................................3

FINDINGS AND RECOMMENDATIONS .......................................................................4

          PROGRAM REQUIREMENTS.................................................................................4
              Federal Law ....................................................................................................4
              Centers for Medicare & Medicaid Services Medicaid Coverage
                Policy Notice...............................................................................................5

          UNALLOWABLE MEDICAL ASSISTANCE COSTS ............................................6
              Unallowable Costs for Non-Inpatient Services...............................................6
              Inadequate Controls ........................................................................................6
              Overpayments Related to Unallowable Costs.................................................6

          RECOMMENDATIONS............................................................................................7

          MEDICAID AGENCY COMMENTS ......................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................7

APPENDIX

          MEDICAID AGENCY COMMENTS




                                                                    iii
                                                  INTRODUCTION

BACKGROUND

Title XIX of the Social Security Act (the Act) authorizes Federal grants to States for Medicaid
programs that provide medical assistance to low-income individuals and persons with
disabilities. The Centers for Medicare & Medicaid Services (CMS) administers the Medicaid
program for the Federal Government. Each State administers its Medicaid program in
accordance with a CMS-approved State plan. While the State has considerable flexibility in
designing its State plan and operating its Medicaid program, it must comply with applicable
Federal requirements.

During a prior review of Medicaid targeted case management services in Georgia
(A-04-06-00022), the Office of the Inspector General found that the Georgia Department of
Community Health (the Medicaid agency) inappropriately claimed Federal financial
participation (FFP) for targeted case management services to juveniles involuntarily residing in
institutions controlled by the Georgia Department of Juvenile Justice (DJJ). These individuals
(juvenile inmates of public institutions) were awaiting criminal proceedings, penal dispositions,
or other involuntary detainment determinations. CMS considers such individuals to be “inmates
of public institutions,” and non-inpatient medical services to them are ineligible for FFP pursuant
to section 1905(a)(A) of the Act.

Medicaid Medical Assistance Programs

Section 1905(a) of the Act offers grants to State Medicaid agencies for medical assistance to
provide medical services to Medicaid beneficiaries. However, subparagraph (A) of section
1905(a) of the Act states that medical assistance does not include “any such payments with
respect to care or services for any individual who is an inmate of a public institution (except as a
patient in a medical institution) . . . .”

Georgia Department of Community Health

The Medicaid agency administers the Medicaid program in Georgia. The Medicaid agency
makes payments to Medicaid providers for medical services 1 and claims the payments as costs
for FFP on its “Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program” (Form CMS-64). The Medicaid agency works together with DJJ to provide Medicaid
reimbursable medical services to eligible juveniles.

Georgia Department of Juvenile Justice

DJJ is authorized to provide probation and parole services to any juvenile committed to DJJ by
the juvenile court system. The juvenile can receive these services at home, in a foster home, in a
group home, in a Regional Youth Detention Center (RYDC), or in a Youth Development Center
(YDC). The RYDCs are temporary, secure facilities for juveniles charged with crimes who,
after being found guilty, are awaiting criminal proceedings, penal dispositions, or other
1
    Medical services include inpatient hospital services and non-inpatient services.


                                                             1
involuntary detainment determinations. The YDCs are long-term, secure facilities for youths
found guilty of more serious crimes. All juveniles residing in RYDCs or YDCs are involuntarily
incarcerated.

DJJ tracks all juveniles in its custody using the Juvenile Tracking System (JTS), which is an
electronic system used to maintain a cumulative record of each juvenile’s history that includes
placement information, caseworker information, offenses per admission, and housing movements
per placement. Placement information includes placement date, release date, reason for
movement, placement site, and status. A JTS placement status of “Institution” identifies
juveniles residing in RYDCs or YDCs controlled by DJJ—juvenile inmates of public
institutions. 2

DJJ is responsible for updating the Medicaid agency’s Medicaid eligibility system to accurately
reflect placements of juveniles in its custody, including placements that are not reimbursable by
Medicaid. Once a juvenile enters a public RYDC or YDC, DJJ inputs the Medicaid eligibility
status code “517” into the Medicaid eligibility system. This eligibility status code identifies the
juvenile as an inmate of a public institution, and the Medicaid agency relies on this code to
prevent Medicaid from making payments for non-inpatient medical services provided to the
juvenile.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid agency claimed FFP for certain
non-inpatient medical services provided to juvenile inmates of public institutions.

Scope

We reviewed paid Medicaid claims totaling $3,769,787 for non-inpatient medical services
provided to juvenile inmates of public institutions from October 1, 2002, through September 30,
2004. We relied on Medicaid payment information provided by the Georgia Department of
Audits and Accounts (DAA). We did not test the accuracy of this information; however, we
eliminated payments for certain services as described in the Methodology section based on the
scope of this review.

We limited consideration of the Medicaid agency and DJJ internal control structures to those
controls concerning claims processing because the objective of our review did not require an
understanding or assessment of the complete internal control structure. Further, we concluded
that our review of the Medicaid agency’s internal control structure could be conducted more
efficiently by substantive testing.


2
 The JTS placement status of “Community” identifies juveniles residing at home and in foster care. The JTS status
of “Residential” identifies juveniles residing in nonpublic group homes and nonpublic institutions. Juveniles
awaiting other living arrangements appropriate to the individual’s needs are identified in JTS by either
“Community” or “Residential” status.


                                                        2
We performed the fieldwork from October 2006 through May 2008 at the Medicaid agency, DJJ
headquarters, and DAA in Atlanta, Georgia.

Methodology

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and other requirements regarding Medicaid
        reimbursement for medical services to inmates of a public institution;

    •   interviewed Medicaid agency, DJJ, and DAA officials;

    •   obtained a listing of all RYDCs and YDCs from DJJ and identified the public institutions
        (i.e., those that were the responsibility of DJJ or that were under DJJ’s administrative
        control);

    •   obtained from the DJJ JTS 3 a list of all juvenile inmates of these public institutions from
        October 1, 2002, through September 30, 2004;

    •   tested that list for completeness and accuracy;

    •   obtained from the DAA an extract from the Medicaid agency’s third-party billing system
        identifying unduplicated payments totaling $6,453,241 for all medical services provided
        to juvenile inmates of public institutions from October 1, 2002, through September 30,
        2004;

    •   eliminated from the DAA extract:

        o $1,836,115 related to Medicaid targeted case management services provided to
          juvenile inmates of public institutions that we previously reviewed
          (A-04-06-00022),

        o $189,497 of payments for non-inpatient medical services provided to juvenile inmates
          as they exited public institutions,

        o $4,598 related to non-inpatient medical services provided outside of our audit period
          to juvenile inmates of public institutions,

        o $381,386 related to non-inpatient medical services provided to juvenile inmates of
          nonpublic institutions,




3
 Based on our testing of the JTS performed during the prior review of Medicaid targeted case management services
in Georgia (A-04-06-00022), we accepted the data in this system as accurate.


                                                        3
         o $271,858 related to inpatient medical services provided to juvenile inmates of public
           and nonpublic institutions; 4 and

    •    reconciled the remaining $3,769,787 in payments for all non-inpatient medical services
         provided to juvenile inmates of public institutions to the costs claimed by the Medicaid
         agency on the Form CMS-64.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

For Federal fiscal years (FY) 2003 and 2004, the Medicaid agency claimed $3,769,787
($2,325,742 Federal share) in costs relating to non-inpatient medical services provided to
juvenile inmates of public institutions. The Medicaid agency inappropriately claimed these costs
because neither DJJ nor the Medicaid agency had adequate controls to ensure that services to
inmates of public institutions were excluded from FFP, in compliance with Federal requirements.

PROGRAM REQUIREMENTS

Federal Medicaid requirements are contained in Federal law and CMS policy notices to State
Medicaid directors.

Federal Law

Section 1905(a) of the Act offers grants to State Medicaid agencies for medical assistance to
provide medical services to Medicaid beneficiaries. The term “medical assistance” is defined as
payment for part or all of the cost of certain types of services and care listed under section
1905(a) of the Act. Medical services include inpatient hospital services, non-inpatient services,
and laboratory and x-ray services, in addition to several other categories of services.
Non-inpatient services include but are not limited to outpatient hospital services; rural health
clinic services; physicians’ services; medical and surgical services furnished by a dentist;
medical care or any type of remedial care furnished by a licensed practitioner; and prescription
drugs, dentures, prosthetic devices, and eyeglasses prescribed by a physician. However,
subparagraph (A) following section 1905(a) of the Act states that medical assistance does not
include “any such payments with respect to care or services for any individual who is an inmate
of a public institution (except as a patient in a medical institution) . . . .” Pursuant to




4
Because these inpatient services were not provided at a prison hospital or dispensary, they were eligible for FFP.
Accordingly, we excluded them from our review.



                                                          4
42 CFR § 435.1008(a)(1), 5 FFP is not available for services to “ Individuals who are inmates of
public institutions . . . .” 6

Federal regulations (42 CFR § 435.1009) 7 define an inmate of a public institution as “a person
who is living in a public institution.” They further state that “public institution” means “an
institution that is the responsibility of a governmental unit or over which the governmental unit
exercises administrative control.”

Centers for Medicare & Medicaid Services Medicaid Coverage Policy Notice

On March 6, 1998, CMS issued a Program Issuance Transmittal Notice (Medicaid policy notice)
to all States in Region IV, which included Georgia, to clarify Medicaid coverage policy for
inmates of a public institution. This Medicaid policy notice replicates the statement of Medicaid
coverage policy for inmates of a public institution issued by CMS to all Associate Regional
Administrators on December 12, 1997.

The Medicaid policy notice states that, for purposes of excluding FFP for services provided to
inmates of a public institution, there is no difference in application of the policy to juveniles or
adults. Also, CMS’s policy clarifies that for FFP to be prohibited, two criteria must be satisfied:
(1) the individual must be an inmate and (2) the inmate must reside in a public institution. To be
classified as an inmate, an individual must be serving time for a criminal offense or confined
involuntarily in State or Federal prisons, jails, detention facilities, or other penal facilities. It
further notes that the exception to inmate status in which “other living arrangements appropriate
to the individual’s needs are being made” does not apply when an individual is involuntarily
residing in a public institution awaiting criminal proceedings, penal dispositions, or other
involuntary detainment determinations. A facility is deemed to be a public institution when it is
under the responsibility of the governmental unit or over which a governmental unit exercises
administrative control.

An exception to the prohibition of FFP, as clarified by CMS in the Medicaid policy, is available
when an inmate is admitted as an inpatient in a hospital, nursing facility, juvenile psychiatric
facility, or intermediate care facility for covered Medicaid services. However, this exception
does not apply for services provided at such facilities when provided to the inmate on an
outpatient basis. Furthermore, CMS distinguishes prison hospitals or dispensaries from inpatient
institutions and concludes that FFP is not available for medical services provided to inmates in
such settings as the inmate would not be considered a patient in a medical institution.



5
 This citation is applicable for our audit period, October 1, 2002, through September 30, 2004. On October 1, 2007,
this citation was moved to 42 CFR § 435.1009(a)(1).
6
 The final rule (50 Fed. Reg. 13196 (April 3, 1985)) implementing this regulation effective May 3, 1985, states:
“Under the policy set forth in this rule, FFP will not be available for Medicaid services provided from the date of
admission until the date of discharge.”
7
 This citation is applicable for our audit period, October 1, 2002, through September 30, 2004. On October 1, 2007,
this citation was moved to 42 CFR § 435.1010.


                                                          5
UNALLOWABLE MEDICAL ASSISTANCE COSTS

Unallowable Costs for Non-Inpatient Services

For Federal FYs 2003 and 2004, the Medicaid agency claimed $3,769,787 ($2,325,742 Federal
share) in costs relating to non-inpatient medical services provided to juvenile inmates of a public
institution. The amount claimed included payments for non-inpatient services such as outpatient
hospital services; rural health clinic services; physicians’ services; medical and surgical services
furnished by a dentist; medical care or any type of remedial care furnished by a licensed
practitioner; and prescription drugs, dentures, prosthetic devices, and eyeglasses prescribed by a
physician.

Some examples of non-inpatient medical services provided to juvenile inmates of a public
institution were:

   •   laboratory services on May 27, June 2, and June 14, 2004, and physician services on
       June 17, 2004, provided to an individual incarcerated in a public YDC from October 24,
       2002, through July 5, 2004;

   •   psychological services on July 16, 2004, provided to an individual incarcerated in a
       public YDC from February 17 through September 30, 2004; and

   •   vision services on July 6, 2004, provided to an individual incarcerated in a public RYDC
       from November 29, 2003, through July 20, 2004.

Inadequate Controls

The Medicaid agency inappropriately claimed unallowable costs for non-inpatient services
because neither DJJ nor the Medicaid agency had adequate controls to ensure that, pursuant to
Federal requirements, services to inmates of public institutions were excluded from FFP. The
Medicaid agency relied on Medicaid eligibility status codes provided by DJJ to identify
placements of juveniles in public RYDCs and YDCs as nonreimbursable placements for
Medicaid. However, in many instances, DJJ did not update Medicaid eligibility status codes in
Medicaid’s eligibility system to accurately reflect juvenile placements in public RYDCs or
YDCs. Furthermore, the Medicaid agency had no procedures in place to verify the accuracy of
the Medicaid eligibility status codes provided by DJJ.

Overpayments Related to Unallowable Costs

As a result of inadequate controls, the Medicaid agency erroneously made Medicaid payments
for non-inpatient medical services provided to juvenile inmates of a public institution and
claimed these payments as costs for FFP on its Form CMS-64. Based on the results of our
review, CMS overpaid the Medicaid agency $2,325,742 (Federal share) for these ineligible
services.




                                                 6
RECOMMENDATIONS

We recommend that the Medicaid agency:

   •   refund to the Federal Government the $2,325,742 overpayment for Federal FYs 2003 and
       2004,

   •   examine claims made during the period subsequent to our audit for compliance with these
       requirements and refund any overpayments identified, and

   •   establish monitoring procedures to provide reasonable assurance that DJJ has adequate
       controls to ensure the accuracy of Medicaid eligibility status codes needed to identify
       juvenile inmates of a public institution.

MEDICAID AGENCY COMMENTS

In written comments to the draft report, the Medicaid agency requested “the opportunity to
review each claim considered ‘erroneously reimbursed.’” It requested this opportunity for two
reasons: (1) some of the juveniles included in our calculation may have been voluntarily
residing in RYDCs while “awaiting community-based placement” and (2) some of the billed
claims may have been “provided on the day of discharge from the RYDC.” The Medicaid
agency also requested we delay the release of our report until April 6, 2009, and reconsider the
overpayment should its review of DJJ records find that youth were placed voluntarily while
awaiting other placement. The Medicaid agency’s comments are included in their entirety as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We provided the Medicaid agency with information on the claims we considered to be errors,
and, as requested by the Medicaid agency, we delayed issuance of our report. To date, however,
neither DJJ nor the Medicaid agency has provided support for the Medicaid agency’s assertion
that juveniles voluntarily residing at the RYDCs were included in our overpayment calculation.
In addition, as we mentioned in the Methodology section, we excluded from our review all
payments for non-inpatient medical services provided to juvenile inmates as they exited public
institutions. In the absence of additional evidence, the comments provided by the Medicaid
agency did not cause us to change our findings or recommendations.




                                               7
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
